CERTIFICATE OF COMPLIANCE

PURSUANT TO RULE 29.2, AND 44.

I the undersigned Petitioner herein certifies this Petition For
Rehearing is presented in good faith and not for delay.

Petitioner certifies this petition is based on substantial grounds not
previously presented, and limited to intervening circumstances of a
substantial effect. This petitioner and certificate are timely filed,

pursuant to Rule 29.2, and 44.

3 (4[ 221 taal A duit

Paul Patrick Jolivette, Petitioner

Date
